         NURSING HOME TECHNICAL ASSISTANCE PROJECT





                    RICHARD P. KUSSEROW

                     INSPECTOR GENERAL





OAI-12-88-01240                                       June 1988
                                         Office of Inspector General

The mission of the Office of Inspector General (OIG) is to

promote the efficiency, effectiveness and integrity of

programs in the United states Department of Health and Human

Services (HHS). It does this by developing methods to
detect and prevent fraud , waste and abuse. Created by
statute in 1976 , the Inspector General keeps both the
Secretary and the Congress fully and currently informed about
programs or management problems and recommends corrective
action.               The OIG performs its                   mission   by conducting audits
investigations and inspections with approximately 1 200 staff

strategically located around the country.


                                Office of Analysis and Inspections

This special report is  produced by the Office of Analysis
and Inspections (OAI), one of the three maj or offices wi thin
the OIG. The other two are the Office of Audit and the
Office of Investigations. The OAI conducts inspections which
are typically short term studies designed to determine
program effectiveness , efficiency and vulnerability to fraud

or abuse.


This inspection , entitled " Nursing Home Technical Assistance
proj ect " was conducted to determine which of the nursing
home data collected by the Health Care Financing
Administration consumers consider most crucial in evaluating
these nursing homes for admission of a             The report
was prepared by the headquarters Health Care Branch , Office
                                                                       patient.
of Analysis and Inspections with the assistance of regional
offices I through
following people:

                                             IX.
                         Participating in this report were the

Headquarters                                                              Consul tant
Barry Steeley (proj ect                            Leader)                Michael Hendricks

Mark Krushat , M.

Carolyn Mullen ,                    M. P .

                   TABLE OF CONTENTS


EXECUTIVE SUMRY.                          . i

BACKGROUND                                . 1


METHODOLOGY.                              . 2

MAJOR FINDINGS                            . 4

RECOMMENDATIONS.                          . 8

APPENDIX A                              . A-I

APPENDIX B                              . B-1

APPENDIX C .                            . C-l

APPENDIX D .                            . D-l

                      EXECUTIVE SUMARY
The Health Care Financing Administration (HCFA)  is planning
to publish information on some 16, 000 nursing homes that care
for Medicare or Medicaid patients. The maj or purpose of this
release will be to provide consumers with a tool that can be
used in the evaluation and selection of a nursing home. In
order to ensure that the final release does include the
information that potential users consider most crucial , HCFA
is asking relevant organizations to suggest which of the
elements from the Medicare/Medicaid Skilled Nursing Facility
and Intermediate Care Facility Survey Report (HCFA Form 519)
they consider most important. The Office of Inspector
General (OIG) was asked to collect the opinions of potential
users of this information at the local level.
The OIG conducted a total of 341 interviews nationwide. The

respondents were almost evenly divided between discharge

planners, senior citizens, family members of current nursing

home residents, physicians, and staff members of the Area

Agencies on Aging. Urban respondents numbered 181 , with 160

rural respondents. By choosing those indicators on the HCFA

survey report that seemed both important and representative
we developed a document containing 63 individual items:
related to characteristics of nursing home residents and 44
potential indicators of quality. The respondents were asked
to indicate on a 5- point scale how important they would rate
each of these 63 indicators. Analysis of this data enabled
us to determine the relative importance of each item to the
respondents and thus to rank each indicator.
The ranking of these indicators had no clear lines of

demarcation , except that all items related to patient
characteristics ranked lower than those related to quality
indicators across all categories of respondents. There were
indications that this was in part due to the respondents
lack of understanding of the significance of the patient
characteristics indicators. In addition , respondents made
many suggestions regarding important information on nursing
homes that is not included in the HCFA surey   report. We
recommend that HCFA consider including this information
which is detailed in this report , in the nursing home
release.
We also found that the respondent physicians and discharge

planners tended to rate all of the items lower than did the
other respondents. However , each category of respondent
reported a need for easily accessible, objective information
on nursing homes. Thus we recommend that HCFA assign high
priori ty to the nursing home information release.
                                                   , "





BACKGROUND

In December 1987 , the Health Care Financing Administration

(HCFA) publicly released data on the mortality rates of

Medicare beneficiaries , broken down by hospital and

diagnosis.   This action was part of a major HCFA initiative
to increase information available to consumers in order to

permi t them to make informed decisions concerning

al ternative approaches to satisfy their health care needs.
The HCFA is planning in the near future to publish

information on some 16, 000 nursing homes that handle Medicare
or Medicaid patients. The main purpose of this release,
which will be drawn from the annual inspection reports
submi tted to HCFA by the state survey agencies, is to provide
the consumer with a tool that can be used in the evaluation
and selection of a nursing home. This is in full accord with
HCFA' s commitment to sharpen competition among medical care
givers. As Dr. William L. Roper , Administrator of HCFA
commented in a recent " Washington Post" interview    If you
believe in a more competitive health care system , you have to
believe in giving people appropriate information so they can
make choices...

The data set available to HCFA containing the necessary
nursing home information is maintained in the
Medicare/Medicaid Automated Certification System (MACS), and
contains approximately 700 data  elements.  The publication
of all this information would be counter- productive, and
would only serve to confuse the consumer seeking an effective
method of comparing nursing homes. Therefore , HCFA is
planning to limit the information released to those
indicators that consumers will find most relevant and useful
in their search for appropriate nursing home care.
In order to ensure that the final release does include the

information that potential users consider most crucial , HCFA

is   asking the nursing home industry, both Houses of
Congress, the American Association of Retired Persons (AARP),
and other relevant organizations to suggest data elements
which these organizations believe are most   important.  Since
HCFA   is also concerned that local input be actively
solici ted , the Office of Inspector General (OIG) was asked to
collect the opinions of potential users of this information
at the local level. 

This inspection collected information regarding the value of
certain measures of nursing home performance in the
selection of a nursing home by a potential resident and
other interested parties. The source document for these
measures , HCFA form 519 , is the Medicare/Medicaid Skilled
Nursing Facility and Intermediate Nursing Facility Survey
Report.   This report is completed annually, or as needed
and serves as a record of findings made by a team of medical

professionals during a physical examination of each

Medicare/Medicaid certified nursing home, including record

review and patient interviews as well as observations of

nursing care and techniques.


Additional forms document deficiencies in care , passing of
medications , food service , etc. The information reported in
all of these forms provides the basis for corrective action
required of nursing homes found to be deficient.
Information on over 700 requirements is reported , ranging
from whether the kitchen is adequately ventilated to whether
there is sufficient nursing staff and adequate disaster
planning.
OBJECTIVES
This inspection is intended to provide HCFA with input from
the expected users of the nursing home data, including
senior citizens, family members, discharge planners
physicians and staff members of the Area Agency on Aging
(AA).   The major objectives of this inspection were:

     To determine which of the patient characteristic and
     quality indicator data elements contained in MMCS are
     considered the most important by potential users of the

     information.
     To collect further comments from these same

     respondents regarding other data that might be

     included in the information release to ensure that

     this proj ect is of maximum usefulness.


     To gather suggestions on the format of the
     information release which might enhance its clarity
     and usefulness to the consumer.
METHODOLOGY

In an effort to provide information representative of
concerns nationwide, each of the 8 Office of Analysis and
Inspections I regional offices was to select 40 respondents
for a total of 320 interviews. Four different sites , two
urban and two rural, were selected judgmentally within each
region. The urban sites were to represent different segments
of a city, either geographic or socioeconomic , while the
rural sites were to be separate , although they could be
adj acent to the urban site or each other.
At each site , ten respondents were to be contacted. These
included two hospital discharge planners with separate case
loads; two senior citizens not currently living in nursing
homes; two family members of senior citizens who had entered
a nursing home with the last three months; two physicians who
treat patients in nursing homes; and two staff members of the
   , including the local ombudsman. The actual number of
respondents was 341.   This included 72 discharge planners,
68 senior citizens , 65 family members, 67 physicians (54
associated with a nursing home and 13 who did not treat
nursing home patients); 66 staff members of AA and 3 other
parties.
Because survey respondents could not be expected to evaluate

lists of hundreds of technical data entries , discussions were

held among OIG staff familiar with quality reviews to

4etermine which items should form the list which respondents
would be asked to evaluate. In some instances , related
elements were. collapsed into a larger area of inquiry.
other instances , the OIG workgroup thought the requirements

while important , would mean little to a layperson as an

indicator of quality. The list finally arrived at contained

63 individual items, 19 related to characteristics of the
home s residents and 44 to potential indications of quality.
A review document was created which listed the 63 items
related them to the source document and provided a scale for
ranking them. (See appendix A. ) A 5- point scale asked each
respondent to determine if the item was of little or no
importance , some importance, moderate importance , great
importance or very great importance in choosing a nursing
home. The staff went through the list of resident
characteristics and quality indicators with all consenting
respondents.
Urban respondents numbered 181 , with 160 rural respondents.

In most regions, urban and rural respondents were evenly
represented. However , in the New York and Atlanta regions
urban respondents were 75 and 60 percent of the respective
totals, while in the Chicago region , rural respondents
represented 61 percent of those contacted.
Field work was undertaken starting March 29 , 1988 and
completed by April 7 , 1988. The respondents were informed of
the nature of the study, asked if they would agree to
participate and oriented to the review document. They were
asked to circle on the review document the rating they would
give each  item. This rating from one to five was to indicate

choosing a nursing home.
how important that particular data item would be to them in
The raw data consisted of the respondents ' ratings of the
data elements on the quality indicators and patient
characteristics instruments.        These categorical responses
were subj ected to an analysis using ridi ts. In this
analysis, each item in the instrument was assigned a value
that indicates the probability that       it would be given higher

ratings than all the other items. By ranking each item

according to its ridi t value, we were able to determine the

relative importance of each   item.      (For a more detailed
description of this analysis , see appendix B.

MAJOR FINDINGS

       Our interviews with discharge planners and physicians
       indicated that many of these professionals , with a
       responsibili ty for directing Medicare beneficiaries to
       nursing homes, were making these crucial decisions
       based on inadequate information. The physicians
       responding often had access to little or no objective
       data.  Many discharge planners interviewed had not
       recently been in a nursing home , and often were
       unaware that the HCFA survey reports were available.
       Each category of respondent , whether discharge

       planners, physicians AA staff , senior citizens or
       family members , conveyed the belief that the
       publication of nursing home data would be a valuable

       tool that would help anyone involved in choosing a

       nursing home.


       All patient characteristics items ranked lower than

       the quality indicators items across all cl asses of
       respondents.
       This finding seems to reflect the lower priority that

       patient characteristics are given by potential nursing

       home consumers. However , many respondents

       particularly senior citizens and Iamily members,
       stated that they were not clear about the significance

       of many of these items. For example , would a high

       number of patients with decubiti indicate that the

       home was experienced in giving. care in such cases , or

       would it rather mean that patients were badly

       neglected? Does a large number of patients with

       catheters indicate that this kind of patient can be

       easily accommodated , or could it show that

       catheterization was used for the convenience of staff?

       There were further comments that , in the absence of

       adequate information on staff/patient ratios , no

       meaningful conclusions about the sui tabili   ty of
       nursing home could be drawn from patient

characteristic data. If patient  characteristic data
are to be included in the information releases , these
should be accompanied by careful explanations of their
potential significance.

The professional respondents (physicians and discharge

planners) tended to rate all of the items lower than

did the other respondents.


Those professionals with experience in making nursing
home placements may have developed their own criteria
for evaluating facilities, leading them to rely less
on this additional information. In addition , several
respondents, especially discharge planners , commented
that the indicators in the survey were basic
standards which they assumed all certified nursing
homes wouLd meet. They saw the number of complaints
or citations as more relevant factors in nursing home
choice. It   was further pointed out that for many
patients, particularly those whose care is paid for by
Medicaid , the overriding criterion would be whether or
not a bed was actually available.

The ten highest ranking data elements follow in order

of ranking:


     The facility notifies the resident'

     physician in the event of significant

     change in the resident' s health status.

     Drugs are administered in accordance with
     wri tten orders of the attending physician.
     E8rgency services are available and
     provided to each resident who required

     emergency care.
     Emergency power is available where life

     support systems are used.


     A written consent is required for

     experimental research.

     day.
     Nursing service is provided 24 hours a



     Residents are allowed to communicate

     privately with individuals of their

     choice, and send/receive personal mail

     unopened.
       Each resident receives care to prevent

       skin breakdown and receives necessary care

       to promote healing.


       The facility is maintained free from

       insects and rodents.


10.	   A resident is sedated or physically restrained
       only when authorized by a physician.

       For a complete and detailed ranking by item and
       respondent type ,see appendix C.
 In addition , there was considerable feedback on the

 need to include information that goes beyond the scope

 of the. HCFA survey reports. This includes general

 explanatory information , as well as additional
 specific data elements describing further resident

 characteristics or indicating expected quality of

 care.   The additional information requested fell into
 the following categories.


       General information to be contained in an

       introduction or appendix:


            A clear definition of skilled nursing

            facilities.
            An explanation of Medicare and Medicaid

            regulations for nursing home coverage

            including what services are covered , how

            much will be paid and how beneficiaries can

            qualify.
            Names, addresses and phone numbers of
            addi tional resources that consumers can
            contact for further assistance. These
            would include both State and local         staff
            and ombudsmen , as well as local social
            service departments.

            A checklist of further questions families

            should ask of any nursing home under

            consideration. This was considered
            particularly important as the information

            release will be limited to data readily
            available to HCFA , and thus many vi tal
            indicators will not be included in the
            individual profiles. It was also suggested

            that HCFA update and reissue its helpful

            1978 booklet How to Select a Nursing Home

     A description of the process of inspection

     licensure and certification of nursing

     homes.
     An explanation of resident rights that are

     required by 1 aw .
Addi tional specific indicators that might be
included in the individual facility   profile:
     staff/patient ratios. This was cited as the
     most important indicator of - quality
                                         by many
     physicians, discharge planners and AAA
     staff.  In addition , more specific
     information on staffing  . was requested, such
     as types of training required , levels of
     nursing care , ratio of staff to special
     care patients , extent of registered nurse
     ( RN) coverage and weekend/evening/night
     coverage.
     Sanction/Compliance history. Many
     respondents indicated that it would be
     useful to know if a nursing home had been
     ci ted for compliance violations in previous
     years , what the violation were , and if these
     were corrected appropriately. In addition
     information could be provided on any
     sanctions that had been imposed , including
     loss of license.

Other factors considered important in the choice
of a nursing  ho:
    Respondents listed many other criteria that
    they felt should be included in a thorough
    assessment of a nursing home. However , HCFA
    does not have facility-specific data on most
    of these criteria; perhaps they could be
    included in the check list for consumers
    that was suggested    above.The suggested
    addi tional factors are listed in appendix
Suggestions as to   format:
    Include State averages (or acceptable

    minimums or ranges) to serve as a baseline

    for comparison with a particular nursing

    home s rating on individual data elements.
                    Use percentages , ratios or rankings , where

                    possible, to clarify the ratings of the

                    individual facilities.


                    Give a brief explanation of the significance

                    of those data elements that might not be

                    clear to a nonmedical consumer.

RECOMMENDA T IONS

       The HCFA should assign high priority to the nursing

       home information release. It is clear from the OIG

       survey that accessible and objective data on nursing

       homes would be useful to the public.


       In developing the format of the information release

       HCFA should incorporate some of the suggestions of the

       survey respondents. In particular , HCFA should
       consider including: 

          A definition of skilled nursing facilities.

             An explanation of Medicare/Medicaid coverage

             regulations for nursing homes.


             A list of additional resources that consumers can

             contact for further assistance.


             A check list of questions families should ask of
             any nursing home under consideration. (Many
             suggestions for this list are included in
             appendix D.

             A description of the process of inspection and

             licensure of nursing homes.


             An explanation of resident rights that are

             required by law.


             InfOrmation as detailed as possible , on
             staff/patient ratios in each home.


             The sanction and compliance history of each

             facili ty.


             state averages , or acceptable minimums or ranges

             to serve as a baseline for the evaluation of

             individual nursing homes.

     Percentages , ratios or rankings , where Possible
     to clarify the ratings of the individual

     facilities.
Other guides to choosing a nursing home should be
referenced.  These would include those published by
non-Government agencies or by other branches of

Government.
APPENDIX A

                            '" ""               :: .



     It It    It It It It           It It It It 




II




     P' P' P' P' P'         P' P' P' P' P' P' 




      i 1             1 I

              J i                   f i 

      1i:    ii                I i
                                         I I
   Gi


! I

              M . In                CD   ef




                      A-l
             '!'!                                                    ..)?





                                                                      R8ide   O1I   lCl
HeiJ        to ya .i 8I of          follaw            i.. cht.fna in chin           n.in he?
 It.       Reid   Ch18              (He                .i it to   Jc th         Litte or No

           follow?)                          bp                                                !tte   Grt   Ver
     F35            Ib of Rl1d               with   Deiti   "";81.

     F36      'Itb of R81d Bc BI Blal Rlin
  with

     F37        tb of Rl1d 11 Re                        spia Sk Ca?

     F38        tb of Re1d 11 RB In 'I/
             Bloc 'lfuiaw?

 F39                      R81d 11                                     with

             Acivities of Dally
                tb of LivJ. 1f.is
 F40                Ib of RI                 11   S8f-M Dr?
         ....
         .!           .            .!                            . . ..     .!                         ..

              It It                 It It II It                                   It It It                     




                                             t\­




  CD P'             P' P' P'                 P'           P' P' P'                             P'     P' 


                                             .JI                       i         11 I               if 

J f                                kt                                                               i I

.j 0 


                                                                             11
; E 



                          J !. 
               . f I! jb.
                                                   13 
                                13



              .! I

         ). h                           I'                             11                           .!ID .!I
              .!i
i .!
         iiiI Jj                                                  If        JJ
                                                                            ! BB l!g Hg

                                                                                             j i





                                                                            SSs                     i i i

         M i                        S i I
         P'                         11 
                          !i




                                    f"                    I;     P'
                                                                 t:               t:




                                                          A-3

  ..              .. .
                  :!                                       !j 


  It It It It 
                    . It It     It . It It            




                                          N"


  P'      P' P' P' 
                P' P'      P'     P'          P' 


  j fi                                           ijf d
 i!       j l' !
                                   B t           !I


                  Ih                     ; H 

                                                           II 





            & l          I.
                                   1 I EJ
! ii. 

          1 Ji 

                  .. n
                                             I t IE!   t

                                                           ! 1 





  \j I
       1 i ! 1
             ! i   H h     it
                                                           !! i 





!1!h i I; f              Hi Ii 
            iI iH ;i! Ii


                                   A-4

                         ..        :!                        .!::
             It        It It                   It It It                          It 




II 



GI P' P' P'                             P' P' P' P'                              P'

                                                                         1 i 


                                          i.

                                                                                 'a !
J t 


        !J
                         i !
                          i i 

                                                             81 



                                                                                      a:e



                  Ii


                                                    'a I 





                                               ! Ii
                  11 

                                                                    I.




                                                    E; i!
I ii i. 

                             i I               iI                   d i I 

               i f
        Ii ;1 Ie  in sl Ii ! it !I! d

                  I:
         ID
         ro G\ P' \0
                  P' G\
                     P'
               fa fa fa I:
                             G\
                             fa
                                    \0
                                    ro

                                    fa
                                                    A-5

.. .. !!
     !!. - -., ..
          , .­
                          .

    It It It                 It It It It It It It




     P' P' P'                P' P' P'           P' P' P'




~ b               1 it               fit i 





             i;   i i
                          B ! i 

                                     is il G

                                               Ii
                        !u
                             h U 

I., RS

             iOl i
6 - .­


     c:
     :i =          I S

                   i:




                                       A-6
    NURSING HOMS TECHNICAL ASSISTANCE PROJECT




Interviewer Name:

Region:
State:


Type of Re8pondent:

    Name:
    Addre88 :
    Phone.



Ty of Site (check one) I
    Urban

    Rural

APPENDIX B

          Nursing Home Technical Assistance proj ect
                      Analysis Using RIDITS


The data collected in the Nursing Home Technical Assistance
proj ect (NHTAP) consists of categorical responses
quali tatively ordered from 1 (Little or No Importance) to 5
(Very Great Importance). Data in this form can be thought of
as an arbitrary categorization of some underlying but
unmeasured, continuous distribution. This is the only
assumption necessary to preform a ridi t analysis. No other
assumptions about the distribution of the data, such as an
underlying normality, are required. In the ridi t analysis
each item in the questionnaire is assigned a value that is
interpretable as a probability.   That is , the value
associated with each item is the probability that a randomly

chosen response for that item has a value greater than that

from the pred fined standard group.

The term ridi t is an acronym for    relative to an identified
distribution. '1   A standard reference group is constructed
and then a mean ridi t is computed for each item in the
questionnaire using the reference group as the comparison
group.    For this analysis, the reference group is the total
number of responses, by category, for all items across all
respondents. The response distribution of each item is
therefore compared to the response distribution of all items.
This will allow us to then rank order the mean ridi t for each
i tern and essentially determine the relative importance of
each item. That is , the item with the highest mean ridit was
consistently given more extreme values (responses in
categories 4 and 5) more often than any other item.
The following table shows the construction of the relative

or standard, group.

                      Relative Distribution

              Response Category                Num.    Ridi t

          No Response                           155
          Li ttle or No Importance             , 508     035
          Some Importance                       458      105
          Moderate Importance                   986      209
          Great Importance                      268      403
          Very Great Importance                 108      763
              Total                             483
          Total (less No Response)              328
The total of the Num. column is equal to the number of items

( 63) times the number of respondents   (341).Each entry under
the Num. column gives the number of times that value was
given to any item by any respondent. Under the column headed
Ridi t, each entry is the proportion of responses in all of
the lower categories plus half the number of responses in
that category (excluding the No Response       category).
                                                      This
table also summarizes the responses of the entire group of
respondents interviewed for this study.

The following example shows how the mean ridi t         is calculated
for a given item. This calculation is carried out for all
items in the questionnaire.


                       Calculation of Mean Ridi t for Item F6

                              Total Patient Census?"

      Res onse Cate                  Num.     Ridi t     Num.   Ridi t

      No Response

      Li ttle or No Importance                         035

      Some Importance                                  105

      Moderate Importance                              209      19.

      Great Importance                            O. 403        29.

      Very Great Importance                            763      35.

              Total                     338                     92.
       Mean Ridi t =   (92. 3/338)     273
This result indicates that the responses to Item F6 (Total
Patient Census?) would have a more extreme value than the
total of the responses only 27% of the time.
Wi th the ridi t analysis one can partition the data set in
any meaningful w y and recalculate ridi ts. The average
values for these partitions , across items , will always be
  500. Thus , one can produce an ordered relationship among
the items using the mean ridi t per item in a distribution
free manner.

Attached is a listing of each item on the questionnaire with
the mean ridit for each item.   Six ridi t values have been
calculated. The first is across all category of respondents

and the list of items is sorted , descending, by this value.

The next five values are the ridits , for each item

calculated for discharge planners , senior citizens , family

members, physicians , and AAA staffers , respectively.

                          ----+----+----+----+




The following stem and leaf plot (a modified histogram)
demonstrates the clustering of the ridi ts obtained in this
analysis.
                 stem Leaf
                      6   555578

                      6   00011222334444

                      5   555666788999999

                      5   011223344

                      4   9



                          023
                          66667777999
                          444

This figure plots the ridi t values for all 63 items in the
questionnaire. For example , there are 6 values between . 65
and . 68 . This is shown on the top line of the          figure.
                                                          The
 Stem ' gives you the value in the first position following
the decimal point and the ' Leaf ' gives you the value of the
second digit following the decimal point. Thus there are
four values of . 65, one value of . 67 and one value of . 68.
Those items falling into the lower cluster (from 0. 2 to 0.
are the first 17 items of the questionnaire. This would
indicate that the census type of information is of the least
importance. This finding held up across all of the
respondent types.
This last table shows the average ridi t by respondent type.
For this table, a ridi t was calculated for each respondent
across all items. This allows us to compare the ranking
behavior of each type of respondent.


                                                          90%   c. I.
  Type of Respondent        - Num.      Avg.   Ridi t   Lower    Upper
  Discharge Planner
  Senior Citizen
  Family Member                                                  O.

  Physician
  AAA Staff
  Other
  Total                       341
   The results indicate that, on the whole , the nonprofessional
   respondents , senior citizens and family members, as well as
   the AA staff , tended to rate the all of the .i terns as more
   important than did the professional respondents , physicians

   and discharge planners.
1. Fleiss , Joeseph L.,       Statistical Methods for Rates and
Proportions ,      New York: John Wiley & Sons




                                  B-4

APPENDIX C

                       Ridi ts by Item and Respondent Type


Tag          Item Name	                       Tot   Disch Sen.     Fam.
                                                     Plan cit.     Mem.    MDs
F90	 THE FACILITY NOTIFIES THE                 684 0. 688 0. 123 0. 679 0. 679 0. 700
       RESIDENT I S PHYSICIAN IN THE
       EVENT OF SIGNIFICANT CHAGE
       THE RESIDENT I S HEALTH STATUS.
F174 DRUGS AR ADMINISTERED IN                  673 0. 660 0. 696 0. 688 0. 688 0. 681
     ACCORDANCE WITH WRITTEN ORDERS

     OF THE ATTENDING PHYSICIAN.
F100 EMRGENCY SERVICES 	                       653 0. 660 0. 686 0. 661 0. 661 0. 637
       AVAILABLE AND PROVIDED TO EACH

       RESIDENT WHO REQUIRES

       EMRGENCY CAR.

F336 EMERGENCY POWER IS AVAILABLE             650 0. 638 0. 664 0. 697 0. 697 0. 644
     WHERE LIFE SUPPORT SYSTEMS
     USED.
F54	 A WRITTEN CONSENT IS REQUIRED            646 0. 620 0. 660 0. 645 0. 645 0. 694
       FOR EXPERIMENTAL RESEACH.
Fl13 NUING SERVICE        IS PROVIDED 24 0. 646     0. 672 0. 629 0. 672 0. 672 0. 634
       HOUR A DAY.
F82	   EACH RESIDENT IS ALLOWED TO            644 0. 643 0. 667 0. 617 0. 617 0. 693
       COMMICATE PRIVATELY WITH

       INDIVIDUALS OF THEIR CHOICE

       AND SEND/RECEIVE PERSONAL MAIL

       UNOPENED.

Fl16 EACH RESIDENT RECEIVES      CAR TO 0. 639 0. 665 0. 631 0. 651 0. 651 0. 640
       PRENT SKIN BREDOWN AND
       RECEIVE NECESSARY CAR 

       PROMOTE HEALING.


     FRE - -F
F347 THE FACILITY IS MAINTAINED
               INSECTS AND RODENTS.
                                              638     626    668    668    668    635

F7l	   A RESIDENT IS SEDATED OR               637     618    675    638    638    684
       PHYSICALLY RESTRAINED ONLY
       WHEN AUTHORIZED BY PHYSICIAN.
F249 A SUFFICIENT MEDICAL RECORD IS 0. 634          0. 622 0. 637 0. 655 0. 655 0. 675
     MAINTAINED FOR IDENTIFICATION
     DIAGNOSES AND TREATMENT FOR
     EACH RESIDENT.




                                       C-l

                             Ridi ts by Item and Respondent Type


Tag              Item Name                       Tot   Disch Sen.     Fam.
                                                        Plan cit.     Mem.    MDs AM
F3l3 ALL COMMON RESIDENTS ARAS                    632 0. 608 0. 673 0. 657 0. 657 0. 629
     CLEAN, SANITARY, AND FREE OF
       ODORS .

F60	 EACH RESIDENT IS ALLOWED TO                  623 0. 635 0. 620 0. 592 0. 592 0. 713
       SUBMIT COMPLAINTS AND
       RECOMMNDATIONS FRE FROM
       RESTRAINT, COERCION,

       DISCRIMINATION, OR REPRISAL.

F128 THERE IS A REGISTERED NUE                   622 0. 617 0. 629 0. 679     679    623
     THE DAY TOUR, SEVEN DAYS A

       WEEK.

F288 EACH RESIDENT ROOM HAS A                    616     643    631 0. 605    605    650
       FUCTIONAL CALL SYSTEM.
F98	   PHYSICIAN PLAS AND SUPERVISES             610     597    638    617    617    609
       RESIDENT I S   CA.
F130 A LICENSED       NUE IS     DESIGNATED 0. 606     0. 602 0. 620 0. 644 0. 644 0. 596
       AS THE CHAGE NUE AT ALL
       TIMES.
F330 DIETETIC SERVICE PERSONNEL                  605 0. 573 0. 627 0. 651 0. 651 0. 617
     PRACTICE HYGIENIC FOOD
     HADLING TECHNIQUES.
F64	 THE NUING HOME DOES NOT                     596 0. 579 0. 641 0. 568 0. 568 0. 648
     CO-MINGLE RESIDENT FUDS WITH

       ANY OTHER FUDS.

F3 5 6 A  EMPLOYEES AR TRAINED IN
       	 LL                                      596     575    668    659    659    591
       PREPARDNESS FOR ANY DISASTER.

F156 REHABILITATIVE NUSING CAR IS                591     625    580    576    576    632
     PERFORMD FOR EACH RESIDENT
     WHO REQUIRES SUCH SERVICE.

F48	 RESIDENT IS INFORMD IN                      591 0. 592 0. 653 0. 575 0. 575 0. 686
       WRITING OF SERVICES AND
       CHAGES AND NON-COVERED

       SERVICES.

F85	 EACH RESIDENT IS ALLOWED TO                 591 0. 599 0. 625 0. 556 0. 556 0. 634
       RETAIN AND USE THEIR PERSONAL
       POSSESSIONS.




                                          C-2

                                Ridi ts by Item and Respondent Type


Tag                 Item Name                       Tot    Disch Sen.     Fam.
                                                           Plan , Cit.    Mem.    MDs

F178 MENUS MEET THE SPECIAL                          589    580 0. 621     613    613    638
     NUTRITIONAL NEEDS OF EACH
     RESIDENT IN ACCORDANCE WITH
     PHYSICIANS ORDERS.

F76	 EACH RESIDENT IS GIVEN PRIVACY                  588    589     617    561    561    659
      DURING TREATMNT.
F163 EACH RESIDENT IS PROVIDED WITH                  587    589     590    617    617    603
     THE APPROPRIATE AMOUNT OF FOOD
      AND FLUID AND THEIR ACTAL

      INTAK IS MONITORED.

F3 09 SINGLE ROOMS WITH PRIVATE                      582 0. 578     628    587    587    585
      TOILET AND HADWASHING
      FACILITIES AR AVAILABLE FOR
      RESIDENT' S REQUIRING
      ISOLATION.
F193 AT LEST THRE MEALS 	                            577    590     587    576    576    603
     SERVED DAILY AT REULA HOUR.
F316 A COMFORTABLE ROOM TEMPERATU                    569    530     595    628    628    584
     IS MAINTAINED IN AL RESIDENT
     ROOM AND COMMON            AR.
F78	 EACH RESIDENT GIVES WRITTEN                     565 0. 572 0. 601 0. 554 0. 554 0. 612
      CONSENT BEFORE RECORDS
      RELEED.
F227 SERVICES             AR PROVIDED,
                             AS                      561 0. 597 0. 525 0. 560 0. 560 0. 639
      APPROPRIATE, TO 	 ET THE

      SOCIAL AND EMOTIONAL NEEDS OF

      THE RESIDENTS.


F283 EACH RO M IS EQUIPPED WITH OR 0. 558 0. 538 0. 625 0. 581 0. 581 0. 561
      COIENLY WCATED­

      TOILET AND BATHING FACILITIES.


F216 THE LABELING OF DRUGS INCLUDES 0. 552 0. 544                 0. 629 0. 596 0. 596 0. 554
     CAUTIONARY INSTRUCTIONS AS
     WELL AS AN EXPIRATION DATE
     WHEN APPLICABLE.

F276 THE DINING ROOM IS CLEAN,                       549 0. 522 0. 589 0. 602 0. 602 0. 534
     ORDERLY, AND OF ADEQUATE SIZE.




                                             C-3

                          Ridi ts by Item and Respondent Type


Tag           Item Name                      Tot	 Disch Sen.     Fam.
                                                   Plan cit.     Mem.    MDs AA
F219 ALL LABORATORY SERVICES AR
              547 0. 506 0. 629 0. 603 0. 603 0. 525
     PROVIDED ONLY ON THE ORDERS OF

     PHYSICIANS.
F157 THERE IS AN ONGOING EVALUATION
          543 0. 576 0. 528 0. 544 0. 544 0. 608
     OF EACH RESIDENTS

      REHABILITATIVE NUSING NEEDS
      INCLUDING ASSISTANCE AND

      INSTRUCTION IN THE ACTIVITIES

      OF DAILY LIVING.
F2 3 2 AN ONGOING PROGRA OF                   535 0. 587 0. 488 0. 509 0. 509 0. 607
      MEANINGFUL ACTIVITIES IS FOR

      EACH RESIDENT.

F44	 RESIDENT IS INFORMD IN                   534 0. 527 0. 620 0. 494 0. 494   Or 649
      WRITING OF RIGHTS, RULES, AND
      AMNDMENTS.

F286 EACH RESIDENT'S ROOM HAS A
              531 0. 503 0. 575 0. 574 0. 574 0. 550
     COMFORTABLE AND FUCTIONAL BED

     AND CHIR, PLUS A CABINET AND

     LIGHT.
F212 PHACISTS REIEW THE      DRUG             523 0. 513 0. 539 0. 555 0. 555 0. 578
      REGIMEN OF EACH RESIDENT, AT
      LEST MONTLY.
F53   RESIDENT CA REFUSE TRETMNT. 0. 523 0. 520 0. 548 0. 460 0. 460 0. 641

F28l THE RESIDENT ROOM MEETS
                 511 0. 495 0. 612 0. 517 0. 517 0. 490
     MINIMU SIZE STANDARD (i. e. ,
     100 SQ. FT. FOR SINGLE ROOMS,

     80 SQ. FT. PER RESIDENT IN

     MULTIPLE RESIDENT ROOMS).


F2 39 EACH RESIDENTS I NEEDS                  505 0. 519 0. 503 0. 488 0. 488 0. 595
      ADDRESSED IN A WRITTEN      PLA
      CAR .
F62	 RESIDENTS AR ALLWED TO                   496 0. 443 0. 547 0. 462 0. 462 0. 578
     MAAGE THEIR OWN FINANCIAL
      AFFAIRS .
F35	 THE NUBER OF RESIDENTS WITH              487 0. 400 0. 545 0. 501 0. 501 0. 572
     DECUBITI (BEDSORES)?




                                      C-4

                         Ridi ts by Item and Respondent Type


Tag          Item Name                    Tot    Disch   Sen.   Fam.
                                                 Plan    cit.   Mem.   MDs

F34   THE NUBER OF RESIDENTS WHQ           380     297    513    384   384   439
      AR DISORIENTED?
F30   THE NUBER OF RESIDENTS WHO           329    298     419    315   315   369
      AR COMPLETELY BEDFAST?
F36   THE NUBER OF RESIDENTS WITH          320    269     398    343   343   334
      BOWEL AND BLADDER RESTRINING?
F38   THE NUBER OF RESIDENTS WHO           297    293     378    285   285   300
      REQUIRE INTRVENOUS
      THERAPY/BLOOD TRASFUSIONS?

F32   THE NQBER OF RESIDENTS WHO           292    239     354    254   254   367
      AR AMBULATORY?
F37   THE NUBER OF RESIDENTS WHO           292    292     381    290   290   276
      REQUIRE SPECIAL SKIN CAR?
F29   THE NUBER OF RESIDENTS WHO           287    243    383     303   303   328
      REQUIRE FEEDING ASSISTANCE?

      TOTAL RESIDENT CENSUS?               273    270    344    259    259   345
F31   TH HUBER OF RESIDENS WHO             269    217    353    278    278   301
      AR CHIRBOUND?
F17   THE NUBER OF RESIDENTS WHO           269    199    350     341   341   290
      REQUIRE TOILETING ASSISTANCE?
F39   TH NUER    OF RESIDENTS WHO          267    236    297    283    283   303
      REQUIRE NO ASSISTANCE WITH
      ACTIVITIES OF DAILY LIVING?

F26   TH HUBER OF RESIDENTS WHO            263    252    339    229    229   269
      HAVE PARNTERA FEEDINGS?
      USIDEM CENSUS BROKE DOWN BY          260    277    308    243    243   326
      WHETHER THE RESIDENT IS
      MEDICAR, MEDICAID, OR PRIVATE
      PAY?

F21   THE NUBER OF RESIDENTS WHO           259    191    360    323    323   262
      REQUIRE TRASFER ASSISTANCE?
F40   THE NUBER OF RESIDENTS WHO           258    187    320    308    308   277
      SELF-ADMINISTER DRUGS?




                                    C-5
                        Ridi ts by Item and Respondent Type


Tag         Item Name                      Tot    Disch   Sen.   Fam.

                                                   Plan   cit.   Mem.    MDs

      THE NUBER OF RESIDENTS WHO            243     181    323    308    308    263

      REQUIRE BATHING ASSISTANCE?

F22   THE NUBER OF RESIDENTS WHO            241     182    309    233    233    255

      HAVE CATHETERS?

F13   THE NUBER OF RESIDENTS WHO           236 o. 166      320    321    321    235

      REQUIRE DRESSING ASSISTANCE?





                                    C-6

APPENDIX D

Suggestions for a Check List to be Used                           by, Potential Nursing
                                Home .       Residents and Family. Members

Financial Concerns

What are the rates and charges for nursing home care?

What services are included in the per diem room rate? Are
there additional charges for laundry, incontinence care

feeding, medications, special diet, special equipment?

Are there any special financial requirements, especially for

Medicaid patients?
Are large " donations " required before a patient                            will be
accepted? (This would be a illegal practice.
How long is the wait for authorization of payment or
coverage?
Are advance payments required until insurance coverage is

approved?
What is the ratio of private beds to Medicare/Medicaid beds?

Can a resident be switched from private pay to Medicaid , if

necessary?
Are patients segregated by financial status?

What is the cost of maintaining a bed if resident                              is   in the
hospi tal?


In what manner a e residents ' funds co-mingled with each

other?


Facili ty Characteristics

Does the home participate in Medicare/Medicaid?


Is a bed available, and if not, how long is the waiting list?


What is the average length of stay for Medicare, Medicaid and

private patients?

  Is the nursing home part of a chain or independently owned?

  Is it   a nonprofit or for- profit   facility?

  Does the home have an affiliation with a medical school?

  Are there special units for heavy care

  patients?                             , such as for Alzheimer

  Is the facility located in a safe neighborhood?

 Is the facility accessible to the family
                                          s home?

 Is there public transportation available?


 What is the ethnic or religious affiliation of the home?

 Does the home accommodate religiQus and cultural differences?


 Are religious services held and what religious hOlidays are

 observed?
 Is there community support for the home?
 invol ved in visitsto the home?                Are volunteers

 What hospital would the patient be sent to in an emergency?
 What are the environmental/structural features of the
 facility, e.g. elevators
                          , types of showers , whirlpoOls?
Are adequate security measures in place
outside door and staff name tags?       , such as locked

Does the facility have a door monitoring system to control
confused patients who might roam?
Is locked storage provided for valuables?

Does tha facility look clean and smell clean?
Is the facility   s atmosphere " homey "   or institutional?
Are there outside areas sui table      for Walking and visiting?


Facili ty Policies
What are the visiting hours?
                              Arethe
dressing and feeding done before  chores such
                                     guests   as bathing,
                                            arrive?
How are " living wills " handled by the facility?





                             D-2

Who assumes guardianship if the patient becomes incompetent

and family members cannot take on this responsibility?


What is the policy on " no codes


What input does the responsible party have regarding measures

to extend the life of the patient?


Is there an organized policy or system to investigate theft

from patients?
Are tips allowed or forbidden?

Is alcohol allowed and how is its use controlled?



Quali ty of   Care

Does the home have a medical director?


Does the facility use physician assistants?


Is dental care available?


Is a podiatrist available?


Are there lab and x-ray facilities on site or easily

accessible?
Is there screening for tuberculosis?


Are immunizations stressed?

Are patients evaluated periodically for discharge to their

homes or to lesser care facilities?

Is the treatment . plan reviewed periodically and updated to

meet current patient needs?


Can the patien    current private physician continue to treat

the patient at the nursing home?


Is assistance given in finding a physician who will treat a

patient at the nursing home?

Are patients unable to use a call system monitored

frequently?
What is the nature of interaction between staff and
residents? Are staff  members kind and respectful to
patients?

                             D-3

Are residents clean , well- groomed and appropriately dressed?

Are there open communications between the nursing home and

the family?

 Is the menu varied and are there choices of food available at

 every meal?


Do the menus take into account the special needs of the

patients , such as food allergies, or a preference for

vegetarian or kosher meals?

How often are patients bathed each week?

How is laundry handled and how often?

How is drug intake regulated?

- Are appropriate
                social , cultural and recreational acti   vi ties
available for residents?



Residents '     Rights and Privileges
Are there resident committees to represent the residents

interests or a patient advocate system?


Are residents allowed to attend sessions planning their care?


Do patients have access to personal medical information?


Are pets allowed to live in/visit the facility?

Are patients allowed to leave the building and , if so , under

what circumstances and supervision?
Can patients maiqtain relationships outside the facility and
make vis! tsto the senior center , church or the hairdresser?
Does the home provide transportation to and from these
acti vi ties?
Are there sign-in/out policies that limit the duration of

outside visits and is there a curfew?


Can residents have their own phones?


Can married couples share the same room and are they given

appropriate privacy?


Is care given in selecting compatible roommates and does the

resident have any choice of roommate?




                               0-4
Are residents allowed and encouraged to wear street clothes

when appropriate?


staffing
Is there a full-time activity director on staff?


Are rehabilitation services available from in-house staff or

from contract/consultant staff?


How often does the physical therapist visit?


Is there a resident social worker who can provide counseling?


Are a barber and a beautician available for the residents?


What is the percentage of staff from temporary agencies?

What is the staff turnover rate?


What are the staffing ratios by level of care?


What is the actual staffing on evening, night and weekend

shifts?
What are the skill levels of staff?


What training do aides receive?


Is there bilingual staff when appropriate?


Are the staff pay scales high enough to attract qualified

staff?
What is the number of employees that have been charged or

suspected of abuse or theft?



Resident Characteristics
Are there age limits on patients accepted?    What is the

average age?


Are AIDS patients accepted?


Is the nursing home able to care for patients on a

ventilator?
What is the percentage of residents with Alzheimer s disease
senili ty or other severe mental impairment?

                           D-5
Are disoriented residents separated from other residents?


What is the physical condition of other residents?

Are patients separated by degree of physical limitation?

How many patients have bedsores? Did they have them before

coming to the home and is appropriate care given?


What are the number of restrained patients?





                          D-6

